No. 21-

Snmje

Supreme Court of tlje fintteb States?
GREGORY SHAWN MERCER,
Petitioner,
vs.
COMMONWEALTH OF VIRGINIA,
COUNTY OF FAIRFAX, et al.
Respondents.

On Petition For Writ Of Certiorari To
The Supreme Court of Virginia

CERTIFICATE OF SERVICE FOR
PETITION FOR WRIT OF CERTIORARI

Gregory Shawn Mercer,
Petitioner, pro se
3114 Borge Street
Oakton, Virginia 22124
202-431-9401

RULE 29.3 & RULE 29.4(c)
CERTIFICATE OF SERVICE
I hereby certify that on this 10th day of June,
2021, I served three copies of the “Petition for Writ of
Certiorari to the Supreme Court of VirginiavVon each of
the following Respondents and Attorney General of
Virginia by certified, first-class mail or hand delivery.
However, I am a bit confused about the actual
attorneys for the Respondents. In the FCCC, the
Prosecutor for the County of Fairfax was Maureen E.
Cummings, VSB # 85680. The FCCC Judge sua sponte
changed the name of that case in his 1/15/2019 “Final
Order” from County of Fairfax v. Mercer to
Commonwealth of Virginia v. Mercer. Thereafter,
neither the County of Fairfax nor the
Commonwealth of Virginia appeared in the COAV
to oppose me. In the SCV, there was a Brief in
Opposition filed by an Assistant Commonwealth
Attorney, Office of the Fairfax County Commonwealth
Attorney with an e-mail address @fairfaxcounty.gov
but her name (C. M. Jackson) appears above only
“Counsel for Appellee Commonwealth of Virginia.”
[A183-184]. I am going to be cautious here and
assume Prosecutor Maureen E. Cummings still
represents the County of Fairfax but never appeared
in the COAV nor SCV and Assistant Commonwealth
Attorney (in the Office of the Fairfax County
Commonwealth Attorney) C. M. Jackson represents
only the Commonwealth of Virginia. In the
meantime, I will e-mail C. M. Jackson to try to figure
this out.

1

1) Counsel for Respondent Commonwealth of Virginia
being C. M. Jackson, VSB #84916, Assistant
Commonwealth Attorney, Office of the Fairfax County
Commonwealth Attorney, 4110 Chain Bridge Road,
Room 114, Fairfax, Virginia 22030, (703) 246-2751
691-4004
(Fax)
(Phone),
(703)
Chanel. Jackson@fairfaxcounty. gov;
2) Counsel for Respondent County of Fairfax being
Maureen E. Cummins, VSB #85680, Assistant
Commonwealth Attorney and Fairfax Attorney, 4110
Chain Bridge Road, Room 114, Fairfax, Virginia
22030, (703) 246-2776 (Phone), (703) 691-4004 (Fax),
maureen.cummins@fairfaxcoimty.gov; and
3) Mark R. Herring, Attorney General of Virginia, 202
North Ninth Street, Richmond, Virginia, 23219, 804(Fax),
786-2071
804-786-1991
mailoag@oag. state. va. us.

28 U.S.C. §1746 DECLARATION / SIGNED
I certify under penalty of perjury under the
laws of the United States of America that the
foregoing is true and correct.
//

GREG0RY SHAWN MERCER, pro se

2

Additional material
from this filing is
available in the
Clerk's Office.

